        U.S. ENVIRONMENTAL PROTECTION AGENCY
        OFFICE OF INSPECTOR GENERAL



                                       Catalyst for Improving the Environment


Cancellation Memorandum




      EPA Maximized Competition for
      Recovery Act Grants under the
      National Clean Diesel Funding
      Assistance Program
      Report No. 10-R-0082

      March 23, 2010
                       U.S. Environmental Protection Agency 	                                             10-R-0082
                                                                                                      March 23, 2010
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review           EPA Maximized Competition for Recovery Act
The Office of the Inspector
                                 Grants under the National Clean Diesel
General (OIG) sought to          Funding Assistance Program
determine whether the
competition process that the      What We Found
U.S. Environmental Protection
Agency (EPA) used to award       We determined that EPA promoted competition to the maximum extent possible
American Recovery and            for the National Clean Diesel Emission Funding Assistance Program. EPA
Reinvestment Act of 2009         achieved three important goals in promoting competition:
(ARRA) grants under the
National Clean Diesel                •	 EPA’s competition process was fair and impartial.
Funding Assistance Program           •	 All applicants were evaluated only on the criteria stated in the 

(1) promoted competition to             announcement. 

the maximum extent possible,         •	 EPA made an effort to mitigate the risk of any applicant receiving an
and (2) met ARRA goals and              unfair competitive advantage.
requirements.
                                 We noted that EPA received a significant increase in the number of applicants and
Background                       proposals for ARRA National Clean Diesel Funding Assistance Program grant
                                 awards over the 2008 competition.
The President signed ARRA
to create and save jobs, jump    We also determined that EPA set up a structure to meet the ARRA goals and
start the economy, and build     requirements, namely the creation or retention of jobs. EPA designed the Request
the foundation for long-term     for Applications to make it difficult for applicants to disregard the ARRA criteria
growth. One of six EPA           and still receive an award. EPA’s evaluation forms to grade applications allotted
programs that ARRA funded        25 percent of the total score to ARRA-specific funding priorities.
was the Diesel Emission
Reduction Act Program. That      As we conducted our work, we noted EPA activities that could be considered as
program, which received          best practices. EPA issued a national Request for Applications and universal
$300 million, includes the       guidance for reviewers and selection officials, collected questions and provided
National Clean Diesel            answers universally, and conducted and coordinated outreach efforts with EPA
Funding Assistance Program.      partners. The national Request for Applications and guidance helped facilitate
                                 consistency among regional grant selection processes. Once the Request for
For further information,         Applications was issued, EPA Headquarters collected all of the questions that
contact our Office of            potential applicants submitted and provided answers that were accessible to all
Congressional, Public Affairs    potential applicants (either online or via webinars). Also, EPA conducted
and Management at                extensive outreach in informing potential applicants of the competition, taking
(202) 566-2391.
                                 advantage of existing contacts, and establishing new ones.
To view the full report,
click on the following link:     Because we determined that EPA is sufficiently promoting competition for ARRA
www.epa.gov/oig/reports/2010/    grants under the National Clean Diesel Funding Assistance Program, we are
20100323-10-R-0082.pdf           closing this subject assignment upon issuing this memorandum report.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                        March 23, 2010

MEMORANDUM

SUBJECT:	             EPA Maximized Competition for Recovery Act Grants under the
                      National Clean Diesel Funding Assistance Program
                      Report No. 10-R-0082


FROM:	                Melissa M. Heist
                      Assistant Inspector General for Audit

TO:	                  Gina McCarthy
                      Assistant Administrator
                      Office of Air and Radiation

                      Craig E. Hooks
                      Assistant Administrator
                      Office of Administration and Resources Management

                      Al Armendariz
                      Regional Administrator, Region 6


We determined that the U.S. Environmental Protection Agency (EPA) promoted competition to
the maximum extent possible for grants awarded under the National Clean Diesel Funding
Assistance Program and set up a structure to meet the goals and requirements for the American
Recovery and Reinvestment Act of 2009 (ARRA). Therefore, we will close this subject
assignment upon issuing this memorandum report.

In September 2009, we initiated preliminary research for this assignment. Our objectives for this
review of ARRA grants awarded under the National Clean Diesel Funding Assistance Program
were to determine:

   1. Did EPA promote competition to the maximum extent possible?
   2. Did the competitions meet the goals and requirements of ARRA?

To answer our objectives, we interviewed personnel at EPA Headquarters within the Office of
Air and Radiation, including the Office of Transportation and Air Quality, and the Office of
Grants and Debarment. The majority of our work was concentrated in Region 6, where we



                                                1

                                                                                          10-R-0082 



interviewed personnel within the Air Program, reviewed the successful grant proposals, and
analyzed reviewer evaluation forms. We focused our work on the National Clean Diesel
Funding Assistance Program, which is part of the Diesel Emission Reduction Act Program. We
examined relevant ARRA criteria such as EPA’s ARRA Diesel Emission Reduction Act
Program Plan. We also reviewed EPA’s actions and efforts to maximize the ARRA National
Clean Diesel Funding Assistance Program competition and EPA’s actions to ensure that the
competition met ARRA goals and requirements. We did not compare the grant proposals to the
corresponding evaluation scores to determine the appropriateness of those scores.

We conducted our preliminary research from September 2009 to January 2010 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. Since our preliminary research did not identify significant concerns about the
competition process to justify continuing into field work, we did not develop or report on all
elements of findings as required by government auditing standards. We are reporting what we
found and provide suggestions for other programs to consider in implementing similar programs.

For the first objective, we determined that EPA promoted competition to the maximum extent
possible. We found that EPA achieved three important goals in promoting competition:

   •	 EPA’s competition process was fair and impartial.
   •	 All applicants were evaluated only on the criteria stated in the announcement.
   •	 EPA made an effort to mitigate the risk of any applicant receiving an unfair competitive
      advantage.

We also noted that EPA received a significant increase in the number of applicants and proposals
for ARRA grant awards over the 2008 competition. EPA received roughly two-and-a-half times
as many applicants for the ARRA grant cycle than it did for the 2008 grant cycle.

For the second objective, we determined that EPA set up a structure to meet the ARRA goals and
requirements, namely the creation or retention of jobs. EPA designed the Request for
Applications to make it difficult for applicants to disregard the ARRA criteria and still receive an
award. The evaluation forms that EPA developed to grade applications allotted 25 percent of the
total score to ARRA-specific funding priorities. We found that for those projects funded in EPA
Region 6, the criteria scores that directly addressed ARRA funding priorities averaged
22.6 points out of the possible 25.

As we conducted this work, we noted some EPA activities that could be considered as best
practices. EPA issued a national Request for Applications and universal guidance for reviewers
and selection officials, collected questions and provided answers universally, and conducted and
coordinated outreach efforts with EPA partners. The national Request for Applications and
guidance helped facilitate consistency among regional grant selection processes. Once the
Request for Applications was issued, EPA Headquarters collected all of the questions that
potential applicants submitted and provided answers that were accessible to all potential


                                                 2

                                                                                          10-R-0082 



applicants (either online or via webinars). Also, EPA conducted extensive outreach in informing
potential applicants of the competition, taking advantage of existing contacts, and establishing
new ones. Region 6 personnel told us they used the mailing list generated through the Blue
Skyways Collaborative to notify potential applicants and conducted a joint webinar with Region
7. Personnel at Headquarters told us that they coordinated with tribes, congressional
representatives, the Environmental Council of the States, the Diesel Technology Forum, and
other stakeholders.

EPA’s Grants Competition Advocate informed us that his office will be reviewing other EPA
competitions during 2010. Based on our preliminary research, we suggest that the Competition
Advocate include an analysis of reviewer evaluations forms. We found that, in some cases, the
narratives that reviewers entered to support their scores provided only limited information.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $204,872.

If you or your staff have any questions regarding this cancellation memo, please do not hesitate
to contact me at (202) 566-0899 or heist.melissa@epa.gov; or Janet Kasper, Director of
Contracts and Assistance Agreement Audits, at (312) 886-3059 or kasper.janet@epa.gov.




                                                 3

                                                                                  10-R-0082


                                                                              Appendix A

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Air and Radiation
Regional Administrator, Region 6
Principal Deputy Assistant Administrator for Administration and Resources Management
General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Transportation and Air Quality, Office of Air and Radiation
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Senior Associate Director for Grants Competition, Office of Administration and Resources
       Management
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Grants and Debarment
Audit Follow-up Coordinator, Office of Air and Radiation
Audit Follow-up Coordinator, Region 6
Acting Inspector General




                                             4

